No. 19-1265
In the

Supreme Court of the United States
FRIENDS OF DANNY DEVITO, et al.,
Petitioners,
v.
TOM WOLF, GOVERNOR OF PENNSYLVANIA, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
Supreme Court of Pennsylvania, Middle District

BRIEF OF AMICI CURIAE COUNTY
OF BUTLER, COUNTY OF FAYETTE,
COUNTY OF GREENE AND COUNTY
OF WASHINGTON IN SUPPORT OF
PETITIONERS
Thomas W. King, III
Counsel of Record
Dillon McCandless King
Coulter & Graham, LLP
128 West Cunningham Street
Butler, PA 16001
(724) 283-2200
tking@dmkcg.com
Counsel for Amici Curiae
296281

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. R e s p o n d e n t s ’ O r d e r s v i o l a t e t h e
Substantive Due Process provisions of the
United States Constitution . . . . . . . . . . . . . . . . . . 4
B. R e s p o n d e n t s ’ a c t i o n s v i o l a t e t h e
Procedural Due Process provisions of the
United States Constitution . . . . . . . . . . . . . . . . . . 8
C. R e s p o n d e n t s ’ O r d e r s w o r k a s a
t a k i ng of pr ivat e pr op er t y by t he
Commonwealth of Pennsylvania . . . . . . . . . . . . . 12
D. R e s p o n d e n t s ’ O r d e r s v i o l a t e t h e
Equa l P rot ect ion prov isions of the
United States Constitution . . . . . . . . . . . . . . . . .  17
1.

Life Sustaining v. Non-Life Sustaining . . . 20

2.

The Governor’s plan to ease restrictions
is arbitrary and irrational . . . . . . . . . . . . . . 22

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

ii
TABLE OF CITED AUTHORITIES
Page
Cases
Adarand Constructors, Inc. v. Peña,
515 U.S. 200, 115 S. Ct. 2097,
132 L. Ed. 2d 158 (1995) . . . . . . . . . . . . . . . . . 18, 19, 20
Board of Regents v. Roth,
408 U.S. 564, 92 S. Ct. 2701,
33 L. Ed. 2d 548 (1972) . . . . . . . . . . . . . . . . . . . . . . . 4, 5
Boyanowski v. Capital Area Intermediate Unit,
215 F.3d 396 (3d Cir. 2000) . . . . . . . . . . . . . . . . . . . . . . 5
Brown v. Heckler,
589 F. Supp. 985 (E.D. Pa. 1984) . . . . . . . . . . . . . . . . 18
Brozusky v. Hanover Township,
222 F. Supp. 2d 606 (M.D. Pa. 2002) . . . . . . . . . . . . . . 5
City of Cleburne v. Cleburne Living Center,
473 U.S. 432 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Cleveland Board of Education v. Loudermill,
470 U.S. 532 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Collins v. City of Harker Heights,
503 U.S. 115 (1992)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
County of Sacramento v. Lewis,
523 U.S. 833 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . 5, 6

iii
Cited Authorities
Page
Craig v. Boren,
429 U.S. 451 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Federico v. Board of Educ.,
955 F. Supp. 194 (S.D.N.Y. 1997) . . . . . . . . . . . . . . . . . 4
Finley v. Giacobbe,
79 F.3d 1285 (2d Cir. 1996) . . . . . . . . . . . . . . . . . . . . . . 4
Fuentes v. Shevin, et al.,
407 U.S. 67, 81, 92 S. Ct. 1983,
32 Ed. 2d 556 (1972)  . . . . . . . . . . . . . . . . . . . . . . 8, 9, 10
Gomez v. Toledo,
446 U.S. 635, 100 S. Ct. 1920,
64 L. Ed. 2d 572 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . 4
Horne v. Department of Agriculture,
576 U.S. 350, 135 S. Ct. 2426, L. Ed. 2d 388 (2015)  . 9
Joint Anti-Fascist Refugee Committee v.
McGrath,
341 U.S. 123, 71 S. Ct. 624, 95 L. Ed. 817  . . . . . . . . . 9
Keystone Bituminous Coal Ass’n v.
DeBenedictis,
480 U.S. 470 (1987)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Locan v. Zimmerman Brush Co.,
455 U.S. 422 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

iv
Cited Authorities
Page
Lynch v. Household Finance Corp.,
405 U.S. 538, 92 S. Ct. 1113, 31 L. Ed. 2d 424 . . . . . . 8
Massachusetts Board of Retirement v. Murgia,
427 U.S. 307 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
Meyer v. Nebraska,
62 U.S. 390 (1923) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Miller v. Schoene,
276 U.S. 272 (1928)  . . . . . . . . . . . . . . . . . . . . .  13, 14, 16
Nordlinger v. Hahn,
505 U.S. 1, 112 S. Ct. 2326, 120 L. Ed. 2d 1 (1992) . . 19
Paul v. Davis,
424 U.S. 693 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Pierce v. Society of the Sisters of the Holy Names
of Jesus and Mary,
268 U.S. 510, 45 S. Ct. 571, 69 L. Ed. 1070 (1925) . . 11
Planned Parenthood of Southeastern
Pennsylvania v. Casey,
505 U.S. 833 (1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Reed v. Reed,
404 U.S. 71 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Rogin v. Bensalem Township,
616 F.2d 680 (3d Cir. 1980) . . . . . . . . . . . . . . . . . . . . . . 9

v
Cited Authorities
Page
Schware v. Board of Bar Examiners,
353 U.S. 232, 77 S. Ct. 752, 1 L. Ed. 2d 796 (1957) . . 18
Sellers v. School Board of Manassas Virginia,
141 F.3d 524 (4th Cir. 1988)  . . . . . . . . . . . . . . . . . . . . 19
Shuman v. Penn Manor School District,
2004 WL 1109506 (E.D. Pa. 2004)  . . . . . . . . . . . . . .  17
Sniadach v. Family Finance Corp.,
395 U.S. 337, 89 S. Ct. 1820, 23 L. Ed. 2d 349 . . . . . 10
Stanley v. Illinois,
405 U.S. 645, 647, 92 S. Ct. 1208.
31 L. Ed. 2d 551 (1972). . . . . . . . . . . . . . . . . . . . . . . . . 11
Tahoe-Sierra Preservation Council, Inc., et al.,
v. Tahoe Regional Planning Agency, et al.,
122 S. Ct. 1465, 535 U.S. 302,
152 L. Ed. 2d 517 (2002) . . . . . . . . . . . . . . . . . . . .  15, 16
Terrace v. Thompson,
263 U.S. 197, 44 S. Ct., 68 L. Ed. 255 . . . . . . . . . . . . 11
Tillman v.
Lebanon County Correctional Facility,
221 F.3d 410 (3d Cir. 2000) . . . . . . . . . . . . . . . . . . . . . . 9
Truax v. Corrigan,
257 U.S. 312, 42 S. Ct. 124, 66 L. Ed. 254,
27 A.L. R. 375  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

vi
Cited Authorities
Page
Truax v. Raich,
239 U.S. 33, 36 S. Ct. 7,
60 L. Ed. 131. L.R.A. 1916D,
543, Ann. Cas. 1917B, 283  . . . . . . . . . . . . . . . . . . . . . 11
Tuan Anh Nguyen v. I.N.S.,
533 U.S. 53 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
United Artists Theatre Circuit, Inc. v.
Township of Warrington,
316 F.3d 392 (3d Cir. 2003) . . . . . . . . . . . . . . . . . . . . . . 6
Village of Willowbrook v. Olech,
528 U.S. 562, 120 S. Ct. 1073 (2000) . . . . . . . . . . . . .  17
Vitek v. Jones,
445 U.S. 480 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Whitney v. California,
274 U.S. 357 (1927)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Willner v. Committee on Character and Fitness,
373 U.S. 96, 83 S. Ct. 1175, 10 L. Ed. 2d 224 (1963)  . 18
Statutes
U.S. Const. Amend. XIV, § I . . . . . . . . . . . . . . . . . . . . . .  17

1
INTEREST OF AMICI CURIAE1
County of Butler (“Butler County”); County of Fayette
(“Fayette County”); County of Greene (“Greene County”);
and, County of Washington (“ Washington County
(hereinafter collectively the “Amici”) file this Brief as an
Amici Curiae in support of the Court granting Petitioners’
Petition for a Writ of Certiorari.
County of Butler is a Fourth Class County of
the Commonwealth of Pennsylvania w ith general
administrative office located at 124 West Diamond
Street, Butler, Pennsylvania 16001; County of Fayette
is a Fourth Class County of the Commonwealth of
Pennsylvania w ith general administrative offices
located at 61 East Main Street, Third Floor, Uniontown,
Pennsylvania 15401; County of Greene is a Sixth Class
County of the Commonwealth of Pennsylvania with
general administrative offices located at 10 East High
Street, Waynesburg, Pennsylvania 15370; and County of
Washington is a Fourth Class County of the Commonwealth
of Pennsylvania with general administrative offices located
at 100 West Beau Street, Washington, Pennsylvania 15301.
These Counties are political subdivisions of the
Commonwealth of Pennsylvania and, as such, are
generally responsible for the affairs, legislation and
1. No Counsel for a party authored this brief in whole or
in part, and no counsel or party made a monetary contribution
intended to fund the preparation or submission of this brief.
No person other than amicus curiae, or their counsel made a
monetary contribution to the brief’s preparation or submission.
The parties were timely notified of amici curiae’s intention to file
this brief. Petitioners and Respondents gave their consent.

2
general laws applicable to their respective geographical
areas, including all matters related to the health, safety,
welfare, and economic well-being of their residents.
Further, each elected official of these Counties has taken a
solemn oath to support, obey and defend the Constitution
of the United States of America.
Each of the aforesaid A mici are affected by
Respondents’ Orders, as the Orders impact their respective
authority to govern their respective geographical areas.
SUMMARY OF THE ARGUMENT
“I know no safe depository of the ultimate powers
of the society but the people themselves; and if we think
them not enlightened enough to exercise their control with
a wholesome discretion, the remedy is not to take it from
them, but to inform their discretion by education. This
is the true corrective of abuses of constitutional power.”
Thomas Jefferson, Letters of Thomas Jefferson
Petitioners’ Petition for Writ of Certiorari, if granted,
would provide the Court with the opportunity to address
the constitutional limitations on the use of Executive
Orders to deprive the citizens of the Commonwealth of
Pennsylvania of the free exercise of their constitutional
rights. All the states have implemented to a greater or
lesser extent restrictions upon their citizens in response to
the COVID-19 virus. The Commonwealth of Pennsylvania,
by and through, its Governor and the exercise of the
Governor’s authority to issue executive orders; and, its
Secretary of Health and the exercise of the Secretary’s
authority to issue orders, has substantially restricted the
rights of its citizens under the Constitution of the United

3
States of America, including, but not limited to, the rights
enumerated in the First, Fourth, Fifth and Fourteenth
Amendments.
The Court’s prior jurisprudence provides some legal
guidance to address the unique circumstances associated
with the COVID-19 world-wide pandemic. However, the
unprecedented nature of this pandemic in modern society
has been used to justify extraordinary limitations upon
the rights of its citizens which engender fundamental
constitutional issues that cannot be adequately addressed
by the Court’s existing jurisprudence. As such, the
Court’s review of this matter is essential to protect and
preserve the constitutional rights of the citizens of the
Commonwealth of Pennsylvania and the United States
of America.
“They who can give up essential liberty to obtain a
little temporary safety deserve neither liberty nor safety.”
Benjamin Franklin, Memoirs of the life & writings of
Benjamin Franklin
Wherefore, the good citizens of the Commonwealth of
Pennsylvania, by and through the aforesaid Amici submit
the within Brief of Amici Curiae in support of Petitioners’
Petition for Writ of Certiorari and implore this Honorable
Court to grant the relief sought therein.

4
ARGUMENT
A. Respondents’ Orders violate the Substantive
Due Process provisions of the United States
Constitution.
The Fourteenth Amendment to the Constitution
forbids a state from depriving anyone of life, liberty, or
property without due process of law. Without a deprivation
of life, liberty or property, there can be no due process
claim. See Board of Regents v. Roth, 408 U.S. 564, 570-71,
92 S.Ct. 2701, 33 L.Ed.2d 548 (1972); Gomez v. Toledo, 446
U.S. 635, 640, 100 S.Ct. 1920, 64 L.Ed.2d 572 (1980); Finley
v. Giacobbe, 79 F.3d 1285, 1296 (2d Cir.1996); Federico v.
Board of Educ., 955 F.Supp. 194, 198-99 (S.D.N.Y.1997).
The substantive component of the Due Process Clause
guarantees that “all fundamental rights comprised within
the term liberty are protected by the Federal Constitution
from invasion by the States.” Planned Parenthood of
Southeastern Pennsylvania v. Casey, 505 U.S. 833, 847
(1992) (quoting Whitney v. California, 274 U.S. 357, 373
(1927)). Although the “outer limits of the substantive
sphere of liberty which the Fourteenth Amendment
protects” have not been defined, id. at 848, certain
protected liberties fall within the ambit of protection.
Thus, those to whom the Amendment applies have a right
to be free from bodily restraint but also the right . . . to
contract, to engage in any of the common occupations of
life, to acquire useful knowledge, to marry, establish a
home and bring up children, to worship God according
to the dictates of [their] own conscience[s], and generally
enjoy those privileges long recognized . . . as essential to
the orderly pursuit of happiness by free men. Board of

5
Regents v. Roth, 408 U.S. 564, 572 (1972) (quoting Meyer
v. Nebraska, 262 U.S. 390, 399 (1923)).
In determining whether a plaintiff has a viable
substantive due process claim, courts must be mindful of
the Supreme Court’s commands in addressing the interplay
of constitutional and state tort law. Boyanowski v. Capital
Area Intermediate Unit, 215 F.3d 396, 400 (3d Cir. 2000).
First, the Fourteenth Amendment is not “a font of tort law
to be superimposed upon whatever systems may already
be administered by the States.” Paul v. Davis, 424 U.S.
693, 701 (1976). Second, it must be remembered that “[a]
s a general matter, the [Supreme] Court has always been
reluctant to expand the concept of substantive due process
because guideposts for responsible decision making in this
unchartered area are scarce and open-ended. The doctrine
of judicial self-restraint requires us to exercise the utmost
care whenever we are asked to break new ground in this
field.” Collins v. City of Harker Heights, 503 U.S. 115, 125
(1992). In Brozusky v. Hanover Township, 222 F.Supp.2d
606 (M.D.Pa.2002), the Court stated, “Consistent with
its reluctance to expand the concept of substantive due
process, the Supreme Court refused to sanction liability
against a municipal defendant on the theory that it had
a “ ‘custom and policy of deliberate indifference toward
the safety of its employees.’ “ Collins, 503 U.S. at 117. Id.
at 611.
When examining the conduct of governmental entities
and officials, “only the most egregious official conduct can
be said to be ‘arbitrary in the constitutional sense . . ..’”
County of Sacramento v. Lewis, 523 U.S. 833, 846 (1992).
The Supreme Court has “for half a century now . . . spoken
of the cognizable level of executive abuse of power as that

6
which shocks the conscience.” Id. Determining whether
the challenged action rises to this level has been described
as a “threshold” question in a challenge to governmental
action. Id. at 847 n.8. The Third Circuit held that the
“shocks the conscience” standard applies to substantive
due process claims. United Artists Theatre Circuit, Inc.
v. Township of Warrington, 316 F.3d 392 (3d Cir. 2003).
“Since Lewis our cases have repeatedly acknowledged
that executive action violates substantive due process only
when it shocks the conscience…” Id. at 399, 400.
In this case, it is clear that the Governor’s actions
“shocks the conscious.” One should be shocked to learn
that the Governor of Pennsylvania ordered that all
businesses of a certain type or character were ordered
to be closed, or the business location closed, unless such
business was a “life-sustaining” business. The Governor
decided by fiat what was life-sustaining and what was
not life-sustaining. The Governor offered no guidance
relative to the proclamation, and did not see fit to submit
such classification to the General Assembly for guidance
and approval.
What is more, the classifications imposed by the
Governor are shocking when one considers the similarity
of the business activity between some life-sustaining
business activity and some non-life-sustaining business
activity.
Recently, the Governor announced a phased reopening
plan using a three-phase matrix and announced that
the Business Shutdown Order would be relaxed in
some counties within the Commonwealth, not including
Butler, Washington and Greene Counties, beginning

7
May 8, 2020 (the “April Announcement”). Four of Butler
County’s neighboring Counties with similar population
characteristic will be allowed to partially reopen as of
May 8, 2020, but Butler, Fayette, Washington and Greene
Counties cannot reopen as the Business Shutdown Order
will remain in effect.
The Governor announced that he was partnering with
Carnegie Mellon University to create a data-driven tool
to aid in decisions to reopen counties. The Respondents
do not set forth with particularity what factors are
considered, and provide citizens no means to challenge
or appeal the Governor’s decision. The Respondents’
classification of what counties may reopen on May 8, 2020,
is arbitrary and capricious.
The Business Shutdow n Order, and the April
Guidelines issued by Respondents, constitute arbitrary,
capricious, irrational and abusive conduct that interferes
with Petitioners’ liberty and property interests protected
by the due process clause of the Fourteenth Amendment
to the United States Constitution.
As described herein, (in the section concerning Equal
Protection), the Governor’s intention of phased easing
of restrictions on a county-by-county basis constitutes
official policy, custom and practice of the Commonwealth
of Pennsylvania. And, such stated intention shocks the
conscience. Indeed, a matter as arbitrary as the placement
of a county line will determine whether one citizen of
the Commonwealth is permitted to pursue that citizen’s
livelihood and be free to pursue their lawful employment
as they shall determine and be free of governmental
interference.

8
The Governor’s arbitrary designation of county lines
to determine which citizens of this Commonwealth are
able to engage in their occupations and, therefore, earn
income to provide for their families, is unconstitutional
and a violation of the substantive due process clause of
the Fourteenth Amendment.
B. Respondents’ actions violate the Procedural
Due Process provisions of the United States
Constitution.
The Fourteenth Amendment to the United States
Constitution forbids a state from depriving anyone of life,
liberty, or property without due process of law.
The Business Shutdown Order and subsequent April
guidance on easing of the Stay at Home Order provided
by Respondents, do not provide due process protections
set forth herein. The Governor’s shut down of the waiver
review process with the Department of Community
and Economic Development (“DCED”), without any
explanation, constitutes an unexplained inconsistency and
is arbitrary and capricious.
“… the prohibition against the deprivation of property
without due process of law ref lects the high value,
embedded in our constitutional and political history, that
we place on a person’s right to enjoy what is his, free of
governmental interference. Fuentes v. Shevin, et al., 407
U.S. 67, 81, 92 S.Ct. 1983, 32 Ed.2d 556 (1972); citing,
Lynch v. Household Finance Corp., 405 U.S. 538, 552, 92
S.Ct. 1113, 1122, 31 L.Ed.2d 424.

9
The Court has consistently recognized that “fairness
can rarely be obtained by secret, one-sided determination
of facts decisive of rights. . . . [And n]o better instrument
has been devised for arriving at truth than to give a person
in jeopardy of serious loss notice of the case against him
and opportunity to meet it.” Fuentes v. Shevin, et al., 407
U.S. 67, 81, 92 S.Ct. 1983, 32 Ed.2d 556 (1972); citing, Joint
Anti-Fascist Refugee Committee v. McGrath, 341 U.S.
123, 170 -172, 71 S.Ct. 624, 647, 95 L.Ed. 817 (Frankfurter,
J., concurring).
It is clear that the Petitioners have a fundamental
property right to use and enjoy land in which they hold an
interest. Horne v. Department of Agriculture, 576 U.S.
350, 135 S. Ct. at 2426, L.Ed.2d 388 (2015). Government
actors must provide adequate due process procedures
before a citizen can be divested of fundamental rights,
such as property rights. Locan v. Zimmerman Brush Co.,
455 U.S. 422, 432-33 (1982); Vitek v. Jones, 445 U.S. 480,
495-96 (1980) Tillman v. Lebanon County Correctional
Facility, 221 F.3d 410, 421 (3rd Cir. 2000). The procedural
due process claim of private interests must be weighed
against the burdens of providing procedures on the
government. Rogin v. Bensalem Township, 616 F.2d 680,
693-694 (3rd Cir. 1980).
Procedural due process analysis requires consideration
of whether the following has been provided: notice of the
governmental action; a neutral arbiter; an opportunity
to make an oral presentation; a means of presenting
evidence; the ability to cross-examine witnesses and
respond to written evidence; the right to representation
by legal counsel; and, a decision based on the record with
a statement of the reasons in support of the decision. Id.
at 694.

10
The Governor argues that the nature of the COVID-19
pandemic justified the need for quick action. White this
may be true, it is also true that the Governor’s initial
business closure Order occurred on March 19, 2020. As
of the date of the submission of this Brief, after May 13,
2020, the Governor has provided none of the elements
listed herein in order to safeguard procedural due process.
It has been more than forty-six (46) days with seemingly
no effort at all from the Governor to provide the citizens
of the Commonwealth of Pennsylvania even a modicum
of due process relative to the closure of their business
property and, indeed, taking of their property.
It is well settled law that “a temporary, nonfinal
deprivation of property is nonetheless a ‘deprivation’ in the
terms of the Fourteenth Amendment.” Fuentes v. Shevin,
et al., 407 U.S. 67, 84, 92 S.Ct. 1983, 32 Ed.2d 556 (1972);
citing, Sniadach v. Family Finance Corp., 395 U.S. 337,
89 S.Ct. 1820, 23 L.Ed.2d 349.
The Governor has argued that the waiver process
instituted by the Order ameliorates the due process
violations. This is simply not the case given the fact
that the waiver request was to be submitted after the
taking took place. There was no guidance provided as
to how the waiver requests were going to be evaluated;
no in person hearing; no neutral arbiter; and, no means
to cross examine witnesses because the process did not
even contemplated the witness testimony. Finally, the
waiver process lacked written decisions supported by
reasoned opinons based upon the record created during
the proceedings.

11
At its core, procedural due process requires notice
of allegations and an opportunity to respond to those
allegations. Cleveland Board of Education v. Loudermill,
470 U.S. 532 (1985).
For the same reasons, the Governor’s stated intentions
concerning the easing of restrictions in “yellow” counties
leaves no recourse for the citizens left in the “red”
counties, even notwithstanding the fact that individuals
and businesses in the “red” counties are just as capable
as businesses in the “yellow” counties of following the
Centers for Disease Control (“CDC’) guidelines and the
Governor’s guidelines relative to social distancing. “This
Court has not . . . embraced the general proposition that a
wrong may be done if it can be undone.” Stanley v. Illinois,
405 U.S. 645, 647, 92 S.Ct. 1208. 31 L.Ed.2d 551 (1972).
“But they have business and property for which they
claim protection. These are threatened with destruction
through the unwarranted compulsion which appellants
are exercising over present and prospective patrons of
their schools. And this court has gone very far to protect
against loss threatened by such action.” Pierce v. Society
of the Sisters of the Holy Names of Jesus and Mary, 268
U.S. 510, 513-514, 45 S.Ct. 571, 573-574, 69 L.ed.1070
(1925); citing, Truax v. Raich, 239 U.S. 33, 36 S.Ct. 7, 60
L.Ed. 131. L.R.A. 1916D,543, Ann. Cas. 1917B,283; Truax
v. Corrigan, 257 U.S. 312, 42 S.Ct. 124, 66 L.Ed. 254, 27
A.L. R. 375; Terrace v. Thompson, 263 U.S. 197, 44 S.Ct.
68 L.Ed. 255.
These actions by the Governor are wholly inadequate
and in direct violation of the procedural due process rights
required by the United States Constitution. Accordingly,

12
the Petitioners’ Petition for a Writ of Certiorari should be
granted by this Hoborable Court.
C. Respondents’ Orders work as a taking of private
property by the Commonwealth of Pennsylvania.
In their Response to Petitioners’ Application to Stay,
Respondents argue that a taking has not occurred and
cite to Keystone Bituminous Coal Ass’n v. DeBenedictis,
480 U.S. 470 (1987), as authority for the legal proposition
that “a State need not provide compensation when it
diminishes or destroys the value of property by stopping
illegal activity or abating a public nuisance. It is hard to
image a different rule that would be consistent with the
maxim ‘sic utere tuo ut alienum non laetas’ (use your own
property in such manner as not to injure that of another).”
Respondents’ Response, p. 22.
In Keystone Bituminous, the Court addressed the
issue of whether a Subsidence Act’s regulation of coal
mining with the intent to eliminate subsidence of the
surface constituted an unconstitutional taking because of
the Act’s impact on the commercial practicability of such
mining. As part of the Court’s analysis, the Keystone
Bituminous Court reviewed several cases involving the
use of police powers to abate public nuisances and other
illegal activities. Respondents’ reliance upon Keystone
Bituminous and, more importantly, Respondents’
willingness to equate Petitions’ lawful business operations
to public nuisances and illegal activity demonstrates the
flawed rationale behind the Governor’s Order.
Unlike the established connection between coal
mining and surface subsidence in Keystone Bituminous,

13
the Governor’s Order prohibits Applicants’ legal business
operations with no evidence that the business operations
are or might be the source of past or future COVID-19
infections. To the contrary, Respondents’ simply presume,
based solely upon the geographic location of Petitioners’
business operations, that Petitioners, Petitioners’ business
operations and employees are public nuisances and, as
such, the Governor unilaterally declared such business
operations to be illegal. There is no evidence to establish
that any of the Petitioners or any of the Petitioners’
employees are infected with the COVID 19 virus. Further,
there is no evidence to establish that due to the nature of
Petitioners’ business operations, Petitioners and/or their
employees are more likely than the employees of lifesustaining businesses or the general population to transmit
the COVID-19 virus. The Petitioners in this case are not
responsible for the transmission or increased infection rate
of the COVID-19 virus in the Commonwealth. Further,
Respondents’ Orders demonstrate that the COVID-19
virus will continue to be transmitted even if Petitioners’
businesses are closed by the Commonwealth.
In further support of its Response, Respondents
cite to Miller v. Schoene, 276 U.S. 272 (1928), in which
the Court held that the Commonwealth of Virginia was
not required to compensate a property owner under the
Taking Clause for the destruction of diseased cedar trees.
The Commonwealth ordered the diseased cedar trees to
be destroyed to prevent the potential spread of the disease
to other trees in the area. Respondent asserts “If the
action to save trees in Miller did not require compensation,
then certainly the Governor’s Order to save lives cannot
constitute a taking which requires compensation.”
Respondents’ Response, p. 23.

14
Respondents’ reliance upon Miller and, more
impor tantly, Respondents’ failure to disting uish
between diseased trees and the operation of Petitioners’
businesses, demonstrates the flawed rationale used to
support the Governor’s Order. First, unlike the cedar
trees at issue in Miller, there is no evidence to indicate
that Petitioners or Petitioners’ employees are infected
with the COVID-19 virus. Secondly, Respondents’ reliance
upon Miller illustrates the arbitrary and capricious nature
of Respondents’ Order. Respondents have presumed,
based solely upon the geographic location of Petitioners’
business operations, that Petitioners and Petitioners’
employees are more likely to be infected with the COVID
19; and, as such, are more likely to transmit the COVID-19
virus to others. Thirdly, unlike the Virginia statute relied
upon in Miller, which required evidence that the subject
trees were or might be the source (host plant) of the
communicable disease, the Governor’s Order prohibits
Petitioners’ business operations with no evidence that
the business operations are or might be the source of
past or future COVID-19 infections. Infection rates have
increased and vary throughout the Commonwealth despite
the Governor’s Commonwealth-wide Orders regulating
business and non-business activities. Fourth, the activities
of Petitioners’ business operations are no more likely to
result in the further transmission of the COVID-19 virus
than the business activities of businesses designated
as “life-sustaining” businesses by the Governor. The
COVID-19 virus does not distinguish between “lifesustaining” and “non-life-sustaining” business activities.
Finally, unlike the destruction of infected trees, the
Governor’s Order acknowledges that the full or partial
closure of businesses which might very well destroy the
businesses, will not eliminate the transmission of the
COVID-19 virus.

15
In addition to Miller, Respondents rely heavily upon
Tahoe-Sierra Preservation Council, Inc., et al., v. Tahoe
Regional Planning Agency, et. al., 122 S.Ct. 1465, 535
U.S. 302, 152 L.Ed.2d 517 (2002). The Tahoe-Sierra
Court held that the government’s decision to restrict
development surrounding Lake Tahoe for a period of
thirty-two (32) months, while land use restrictions were
being implemented, did not constitute a taking because
the nature of the restriction did not cause a diminution
in the value of the property. Respondents’ reliance upon
the temporary nature of the restrictions in Tahoe-Sierra
is misplaced. Unlike the property interest at issue in
Tahoe-Sierra, which merely involved the temporary delay
in the development of owner’s interest in real property,
the Governor’s Orders adversely impact all aspects of
Petitioners’ on-going business operations.
Further, it is relevant to note that Respondents have
effectively acknowledged that the Governor’s Orders have
resulted in the loss of the use of Petitioners’ business
operations. As cited by Respondents, “the Pennsylvania
Supreme Court recognized that the Governor’s Order
‘results in only a temporary loss of the use of the
Applicants’ businesses premises’ in order to ‘protect the
lives and health of millions of Pennsylvania citizens[.]”
Respondents’ Response, p. 23, citing the Majority
Opinion, at 35-37.
To characterize Respondents’ Orders as merely
involving the temporary loss of one’s interest in real
property is factually inaccurate. As the Tahoe-Sierra
Court acknowledged, the “regulatory taking analysis
outside the context of a physical or other per se taking
is more complex.” Tahoe-Sierra, 535 U.S. at 322 N, 17,

16
122 S.Ct. 1465. “Regulatory takings jurisprudence ... is
characterized by ‘essentially ad hoc, factual inquiries,’
designed to allow ‘careful examination and weighing of
all the relevant circumstances.’” Id. at 321, 122 S.Ct. 1465
(citations omitted). As articled in Tahoe-Sierra, 535 U.S.
at 322 N, 17, 122 S.Ct. 1465, there is no set formula for
evaluating regulatory takings claims, courts typically
consider whether the restriction has risen to the level of
a compensable taking under the multi-factor balancing
test articulated in Penn Central, 438 U.S. at 124, 98 S.Ct.
2646; Lingle, 544 U.S. at 538–39, 125 S.Ct. 2074 (citations
omitted).
Unlike the facts in Tahoe-Sierra, s’ return on its
business investment has not been merely delayed.
Respondents’ Orders are more analogous to the Virginia
statute in Miller. Like the cedar trees, Applicants’
businesses are in the process of being destroyed.
Like the Pennsylvania Supreme Court, Respondents
assume that Petitioners own the real property, equipment
and fixtures within their businesses. However, many
businesses impacted by Respondents’ Orders lease most,
if not all, of the real property, equipment and fixtures
necessary to operate their businesses. In either event,
Petitioners have incurred tremendous financial costs
associated with purchasing or leasing an appropriate
physical structure to meet business needs; the purchase
or lease of equipment for the operation of the business;
the purchase of product to be used in the operation of the
business; the screening, hiring and training the business’
employees; the marketing of the business; and, the arduous
process of establishing a customer base sufficient to
sustain the business. All of which are necessary to realize

17
a profit or return on Petitioners’ business investment and
all of which have been taken by Respondents’ Orders in
violation of the Taking Clause of the Fifth Amendment.
D. Respondents’ Orders violate the Equal Protection
provisions of the United States Constitution.
Under the Equal Protection clause, Section I of the
Fourteenth Amendment, “[n]o State shall . . . deny to
any person within its jurisdiction the equal protection
of the laws.” U.S.C.A. Const. Amend. XIV, § I; City of
Cleburne v. Cleburne Living Center, 473 U.S. 432 (1985).
The purpose of the Equal Protection Clause of the
Fourteenth Amendment is to secure every person within
a state’s jurisdiction against intentional and arbitrary
discrimination, whether occasioned by express terms
of a statute or by its improper execution through duly
constituted agents. Village of Willowbrook v. Olech, 528
U.S. 562, 564, 120 S. Ct. 1073 (2000). Generally, to state
a claim based on the Equal Protection clause, a plaintiff
must allege that he is a “member of a protected class,
was similarly situated to members of an unprotected
class, and was treated differently from the unprotected
class.” Shuman v. Penn Manor School District, 2004 WL
1109506, *7 (E.D. Pa 2004).
The first issue in the Equal Protection analysis is
the determination of which standard of review applies to
Petitioners’ claim. “It is generally accepted by both the
courts and commentators that in cases involving equal
protection challenges that Supreme Court applies three
levels of review in ruling on the validity of the challenged
statute. The three tiers of review are the rational basis
test, intermediate or ‘middle-tier’ scrutiny and strict

18
scrutiny.” Brown v. Heckler, 589 F.Supp. 985, 989 (E.D. Pa.
1984) (citations omitted). In general, the term “heightened
scrutiny” refers to either level of review above rational
basis. Brown supra at 989.
The Court uses a strict scrutiny standard if a
classification impermissibly interferes with the exercise of
a fundamental right, such as the right to vote or procreate,
or if a suspect class is disadvantaged. Massachusetts
Board of Retirement v. Murgia, 427 U.S. 307 (1976). A
suspect class is one that is “saddled with disabilities, or
subjected to such a position of political powerlessness as to
command extraordinary protection from the majoritarian
political process.” Massachusetts Board of Retirement v.
Murgia, 427 U.S. 307, 313-314 (1976). Racial or ancestral
minorities as well as alienage have qualified as classes or
groups which clearly qualify as suspect, requiring strict
scrutiny. Brown, at 989. “A State cannot exclude a person
from the practice of law or from any other occupation in a
manner or for reasons that contravene the Due Process or
Equal Protection Clause of the Fourteenth Amendment.”
Willner v. Committee on Character and Fitness, 373 U.S.
96, 101, 83 S.Ct. 1175,1180, 10 L.Ed.2d 224 (1963); citing,
Schware v. Board of Bar Examiners, 353 U.S. 232, 238239, 77 S.Ct. 752, 756, 1 L.Ed.2d 796 (1957).
Under strict scrutiny, the government has the burden
of proving that the suspect classifications “are narrowly
tailored measures that further compelling governmental
interests.” Adarand Constructors, Inc. v. Peña, 515 U.S.
200, 227, 115 S.Ct. 2097, 132 L.Ed.2d 158 (1995).
If the plaintiff is not a member of a suspect class
and there is no claimed interference with a fundamental

19
right, the Court should analyze the claim under a rational
basis standard. Sellers v. School Board of Manassas
Virginia, 141 F.3d 524 (4th Cir. 1988). This test provides
a presumption of constitutionality and only requires that
the law or action have a legitimate purpose and a rational
relationship to the fulfillment of that purpose. Brown,
supra.
Int er med i at e, or m idd le -t ier scr ut i ny, fa l ls
somewhere between rational basis and strict scrutiny.
The Supreme Court articulated the standard by stating
that the challenged law must be “substantially related”
to “important governmental objectives.” Craig v. Boren,
429 U.S. 451 (1976). Previous Supreme Court cases have
established that classifications that distinguish between
males and females are subject to this middle-tier scrutiny
under the Equal Protection clause. Craig, 429 U.S. at 457;
Reed v. Reed, 404 U.S. 71, 75 (1971). Gender classifications
must serve important governmental objections and must
be substantially related to those objectives in order to
withstand constitutional challenge. Craig, at 457.
These different standards of equal protection review
set different bars for the magnitude of the governmental
interest that justifies the statutory classification.
Heightened scrutiny demands that the governmental
interest served by the classification be “important,” see,
e.g., Virginia, supra, at 533, 116 S.Ct. 2264, whereas
rational basis scrutiny requires only that the end be
“legitimate,” see, e.g., Nordlinger v. Hahn, 505 U.S. 1,
10, 112 S.Ct. 2326, 120 L.Ed.2d 1 (1992). Strict scrutiny
requires that the government interest be “compelling.”
Adarand, supra, at 227.

20
“The most important difference between heightened
scrutiny and rational basis review, of course, is the
required fit between the means employed and the ends
served. Under heightened scrutiny, the discriminatory
means must be “substantially related” to an actual and
important governmental interest. Under rational basis
scrutiny, the means need only be “rationally related” to a
conceivable and legitimate state end.” Tuan Anh Nguyen
v. I.N.S., 533 US 53, 77 (2001) (citations omitted). Strict
scrutiny requires that the means be “narrowly tailored”
to further a compelling governmental interest. Adarand,
supra, at 227.
Here, it is clear that the Governor’s actions in initially
closing what he deemed to be “non-life sustaining”
businesses was a violation of the Equal Protection Clause,
no matter what level of scrutiny is used. Likewise, the
Governor’s stated intention to open up some counties to
“yellow” status (easing of the shutdown restrictions), but
not other counties, is a violation of Equal Protection.
1.

Life Sustaining v. Non-Life Sustaining

The Governor’s actions in his business classification
system are arbitrary and irrational. There has never
been such a classification of business activity before and
Respondents’ attempts to classify such categories is
nothing more than ipse dixit. That is, the classification of
business types literally put some people out of business
because of the random classification. For example, the
Governor decided that an accounting practice was “lifesustaining” and, therefore, that business was permitted
to continue to operate from the office location. On the
contrary, most law firm services were determined by the

21
Governor to be “non-life-sustaining.” Accordingly, the
Governor determined that it was more important, for
example, for an accountant to prepare financial documents
than an attorney to prepare financial documents. Or, more
specifically, more important for an accountant to perform
such services at the accountant’s business location than
for an attorney to do the same thing from the attorney’s
business location.
Moreover, the Governor’s arbitrary and irrational
classification in this example completely ignores the
“social distancing” aspect of this classification, something
that is one stated intention of the Governor’s stay at home
order. Indeed, the Governor’s Order provides that an
accounting firm of dozens, if not hundreds, of employees
were permitted to continue to work from their regular
location while a sole practitioner attorney who performs
similar type services, was required to “telework” or
telecommute. Such distinctions are the very definition of
arbitrary and irrational classifications.
Finally, it is also important to note that many of
the businesses that the Governer classified as non-lifesustaining can only be carried on at the location of the
business. In other words, that business cannot be operated
by “tele-work” or tele-commuting means. For example, the
Governor declared that business in the field of real estate
agents and brokers are not life sustaining and, therefore,
must be closed in order to advance the Governor’s goal
of “social distancing.” However, that classification itself
is arbitrary and irrational as a realtor would be perfectly
capable of carrying on a real estate practice with very
limited client contact, e.g. one to two customers visiting
or viewing a vacant piece of real estate, while maintaining

22
a six-foot distance, while wearing a mask, and while not
touching. On the contrary, a title insurance company,
closing a real estate transaction on the same type of
property that the realtor is prohibited from showing, are
legally permitted to congregate in offices, coming into
close contact with others, in order to finalize a real estate
transaction.
One must surely agree that shelter from the elements
is necessary to sustain life. Likewise, the act of facilitating
the acquisition of shelter is necessary to sustain life.
However, the act of hiring a realtor to assist in the
acquisition of shelter is not life sustaining, according to
the Governor. This is not rational - indeed it seems to be
the very definition of arbitrary action.
2.

The Governor’s plan to ease restrictions is
arbitrary and irrational.

On May 1, 2020, the Governor announced plans
to begin easing stay at home restrictions previously
implemented. Said plan would ease the restrictions on
some counties, and not others. The easing of restrictions
in some counties, and not in other counties, is not rational
and is an arbitrary exercise of the Governor’s executive
power.
The Respondents’ plan is nothing more than an
arbitrary decision-making tool that relies on the
speculations of the Respondents. Here, the Governor
has announced a plan to designate some counties as
“yellow” and intends to permit some businesses to reopen, with social distancing guidelines. The designation
of these counties is based upon an arbitrary county line

23
demarcation. As such, there inevitably will be some
businesses that will re-open in the “yellow” county while
the same type of business, across the county line in a
“red” county, will continue to be subject to the Governor’s
closure order. This is arbitrary and irrational. Customers
in need of the services to be supplied by these businesses
will naturally, and be required to, frequent the business
in the yellow county because the business in the red
county will remain closed. This would mean that only
the business in the yellow county would be available to
residents of all counties. How the Governor’s stated goal
of social distancing or slowing the spread of the virus is
advanced by this artificial demarcation is left unstated.
Counsel for the Governor in its response to Petitioners’
Motion for Stay terms these decisions “policy decisions”
as opposed to legal decisions. This argument is a fine
distinction for a lawyer to make in a brief, but is of little
comfort to the individual whose business is located in a
red county and happens to be across a county line from
a competing business in a yellow county. The individual,
with the same type of business, with the same number of
employees, with the same number of would be customers,
with the same health considerations in place, and with
all other factors being equal, is left feeling that he is not
being treated the same as his business competitor. And, he
is not because of the Governor’s arbitrary and irrational
designations.
For these reasons, this Court should grant the
Petitioner’s Petition for Writ of Certiorari.

24
CONCLUSION
For the reasons set forth herein, Amici Curiae hereby
asks this Honorable Court to grant Petitioners’ Petition
for Writ of Certiorari.
Respectfully submitted,
Thomas W. King, III
Counsel of Record
Dillon McCandless King
Coulter & Graham, LLP
128 West Cunningham Street
Butler, PA 16001
(724) 283-2200
tking@dmkcg.com
Counsel for Amici Curiae

Date: May 19, 2020

